                                                     NAnONAL SCIENCE FOUNDA nON
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGA nONS
                                                            .            \
                                               CLOSEOUT MEMORANDUM

 Case Number: A09030018                                                                            Page 1 of 1



                  OIG conducted an inquiry'into an allegation that the Subjectl submitted an NSF proposal
          containing copied text. During the inquiry we identified copied material in two NSF proposals. The
          Subject's response to our inquiry did not dispel the allegation, and we referred the matter to the
          Subject's institution for investigation.

                  The University concluded, based on a preponderance of the evidence, that the Subject "at
          least knowingly and most probably carelessly" committed plagiarism, deemed a significant
          departure from accepted practices, and took actions to protect the University's interests.
                   We adopted the University's findings in part, but could not accept the report in its totality in
          lieu of conducting our own investigation. We concluded, based on a preponderance of the evidence,
          that the Subject knowingly committed plagiarism, deemed a significant departure from accepted
          practices, and recommended actions to be taken to protect the federal interest. The Deputy Director
          concurred with our recommendations.

                  This memo, the attached Report ofInvestigation, and the Deputy Director's letter constitute
          the case closeout. Accordingly, this case is closed.




NSF GIG Form 2 (I 1/02)
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON. VIRGINIA 22230



                                         MAR 1 5 2011 


     OFFICE OF THE 

       DIRECTOR 




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice ofResearch Misconduct Determination


Dear D r . _




                                                As documented in t4e attached Investigative
Report prepared by NSF's Office of Inspector General ("OIG"), these proposals contained
plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, ''research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ..." 45 CFR § 689.1 (a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices 	of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).
                                                                                              Page 2
        Your proposals contained verbatim and paraphrased text, as well as figures and embedded
references, copied from eight source documents. By submitting proposals to NSF that copied the
ideas or words of another without adequate attribution, as described in the OIG Investigative
Report, you misrepresented someone else's work as your own. Your conduct unquestionably
constitutes plagiarism. I therefore conclude that your actions meet the definition of "research
misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding ofr.nisconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed knowingly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

       In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination thatit was committed
knowingly. I have also considered the fact that you engaged in a pattern of misconduct, and that
your misconduct had no impact on the research record. In addition, I have considered other
relevant circumstances. 45 CPR § 689.3(b).

       After assessing the relevant facts and circumstances ofthis case, I am taking the
following actions against you:

       (1) Until March 10,2012, you must provide to the OIG certifications that any proposal or
           report that you submit to NSF as a PI or co-PI does not contain plagiarized, falsified,
           or fabricated material;

       (2) Until March 10,2012, you must provide to the OIG assurances from your employer
           that any proposal or report that you submit to NSF as a PI or co-PI does not contain
           plagiarized, falsified, or fabricated material; and

       (3) No later than March 10,2012, you must take a course on research ethics, with an
                                                                                              Page 3
            emphasis on proper citation and attribution, and certify to the DIG that you have
            completed such a course.

       The certifications should be submitted in writing to the Foundation's DIG, Associate
Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.

Procedures Governing Appeals
       Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
ofthis decision, in writing, to the Director ofthe Foundation. 45 CPR § 689.1 O(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are <1."''''''''1'5 
    of the applicable regulations. If you have·
any questions about the foregoing, please                                General Counsel, at (703) 

292-8060.



                                                        Sincerely,




                                                        Wanda Ward
                                                        Senior Advisor to the Director




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
CONFIDENTIAL                                                                    CONFIDENTIAL




      National Science Foundation 

        Office of Inspector General 





                      Confidential 

                 Report of Investigation 

                Case Number A09030018 

                           27 October 2010 


               This Confidential Report of Investigation is provided to you
                               FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result
 in personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be
 further disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this confidential report of investigation.

                                                                           NSF OIG Form 22b (11/06)
CONFIDENTIAL 	                                                                       CONFIDENTIAL



                                      Executive Summary

Allegation:      Plagiarism.

OIG Inquiry:     01G identified eight sources from which approximately 84 lines, four figures,
                 and two embedded references were allegedly copied into two declined NSF
                 proposals. 01G referred the matter to the Subject's home institution.

University
Investigation
and Action:      The University concluded, based on a preponderance of the evidence, that the
                 Subject "at least knowingly and most probably carelessly" committed
                 plagiarism, deemed a departure from accepted practices.
                 The University sent the Subject a letter of reprimand; required the Subject to
                 complete ethics training immediately and every three years while affiliated
                 with the University, and to ensure that his research team completes regular
                 training; informed the Subject that future misconduct could result in
                 termination; withheld discretionary payor awards for three years from the
                 Subject; and committed to ensuring that all ofthe Subject's proposals be
                 reviewed, for at least three years, by the Subject's Director and Department
                 Chair prior to submission.


OIG
Assessment:
                 • 	 The Act: The Subject committed plagiarism in two proposals, including
                     84 lines, four figures, and two embedded references, from eight sources.
                 • 	 Intent: The Subject acted knowingly.
                 • 	 Standard of Proof: A preponderance of evidence supports the conclusion
                     that the Subject committed plagiarism.
                 • 	 Significant Departure: The Subject's plagiarism represents a significant
                     departure from accepted practices.
                 • 	 Pattern: Additional proposals submitted by the Subject, including one
                     submitted to NSF, contained plagiarism.

OIG
Recommends:
                 •             Make a finding of research misconduct against the Subject.
                 •             Send the Subject a letter of reprimand.
                 •             Require certifications from the Subject for a period of 1 year.
                 •             Require assurances from the Subject for a period of 1 year.
                 •             Require certification of attending an ethics class within 1 year.




                                                 1

CONFIDENTIAL                                                                          CONFIDENTIAL


                                           OIG's Inquiry

         010 conducted an inquiry into an allegation that the Subjed submitted an NSF proposal
(Proposal   e)  containing copied text. Our initial analysis of Proposal 1 found approximately 53
lines, three figures, and one embedded reference allegedly copied from five sources. 3 We
examined four other proposals the Subject submitted. While two of the proposals contained de
minimis plagiarism, the other two proposals (Proposals 24 and 35) - which were identical in title
and content - contained 31 lines, one figure, and one reference allegedly copied from three
sources. 6 Because Proposals 2 and 3 were identical, we will only refer to proposal 2 in our
analysis.

        010 contacted the Subject about the allegation. 7 In his response, 8 he explained that
Proposals 1 and 2 were "highly interdisciplinary in nature.,,9 As such, he asked his
"interdisciplinary research team" - undergraduate, graduate and postdoctoral students from a
variety of fields - "to help [him] with the background literature search," and "to summarize the
search results in a draft form that would be included in the introduction session [sic]."IO

                 I considered this exercise as a part of their professional training to
                 be involved in a proposal preparation process. On the other hand, I
                 was fully occupied with the organization of proposed ideas, writing
                 preliminary results, research and educational plan. Unfortunately, I
                 failed to notify my fellow members about the consequence of
                 plagiarism in the context of preparing proposal materials.
                 However, my group members are fully aware of plagiarism in the
                 context of research manuscript preparation.! I

The Subject acknowledged the proposals "unintentionally,,!2 contained material "copied from the
source documents but not properly distinguished and attributed."J3 He noted all of the copied
material appeared in the proposals' background sections and that many segments included




      2: Sources F-H.
7 Tab 4.
8 Tab 5.
9 Tab 5, pg 1.
10 Tab 5, pg 1.
II Tab 5, pg l.
12 Tab 5, pg 2.
13 Tab 5, pg 1.




                                                   2

CONFIDENTIAL                                                                                          CONFIDENTIAL


reference citations. 14 The Subject accepted responsibility: "Real'izing this as a fault on behalf of
the PI, I sincerely apologies [sic] for this incidence [Sic].,,15

       OIG reviewed the Subject's response and concluded it did not dispel the allegation
because the Subject acknowledged his proposals included inadequate citation, and failed to name
those he claimed authored the material.

           The following chart summarizes the allegedly copied text in each proposal:

                        Source                     Proposall                        Proposal 2
                                                   (Declined)                       (Declined)
                A    (Article)                         28 lines; 1 figure
                B   (Article)                           2 lines; 1 figure
                C    (Article)           8 lines; 1 embedded reference
                D    (Article)                                  8.5 lines
                E   (Article)                         6.5 lines; 1 figure
                F   (Newsletter)                                                                   20 lines
                G   (Article)                                                            10 lines; 1 figure
                H    (Article)                                              I line; 1 embedded reference
                                                    53 lines; 3 figures;                31 lines; 1 figure;
                Total (UNIQUE)                   1 embedded reference               1 embedded reference

Base~ on the extent of allegedly plagiarized material, we concluded there was sufficient evidence
to proceed with an investigation.

                                           University Investigation

        Consistent with our policy, OIG referred the matter to the Universityl6 and informed the
Subject we had done SO.17 The University, consistent with its policies,t8 conducted an
investigation and produced an Investigation Report (Report) with attachments. 19 The University
subsequently provided supplemental documents responding to our request for clarification of the
Report's conclusions. 20                                                         .

       The Investigation Committee (Committee) determined, based on a preponderance of the
evidence,2J that the allegations of research misconduct were "accurate and validated" and that the
Subject "acknowledged to the Committee members that he was at fault,,,22 noting, "I did not
have time to carefully review every sentence of every proposal.,,23 He said he "never read the


14   Tab 5, pg 1.
15~
16_ _ _ _

17 Tab 6.
18 Tab 7.                                                                     .

19 Tab 8. Due to the length of the Report and attachments, we divided materials received as one unit into four units. 

Tab 8 contains files labeled Report Part 1, Report Part 2, Report Part 3, and Report Part 4. 

20 Tab 9.
21 Tab 8, Report Part 1, pg 7. (Page numbers reflect the page number generated by the .pdf format.) 

22 Tab 8, Report Part 1, pgs 6-7. 

23 Tab 8, Report Part 4, pg 47. 





                                                           3

CONFIDENTIAL                                                                             CONFIDENTIAL



guidelines" regarding appropriate citation and had "no idea [NSF] require[s] same format of
publication for journals [sic].,,24 He further claimed his proposal submissions to NSF were
earlier versions ofthe final draft, which he could no longer locate, but which did include
additional references. 25 Lastly, he explained that his post-doc wrote much of the proposal, and
incorporated certain figures and background information from the post-doc's own published
papers on work not conducted in the Subject's lab. 26

        The Committee concluded the Subject's actions represented a significant departure from
accepted practices ofthe relevant research community.27 It further stated, "actions by the
[Subject] ... represent a research misconduct action which violates all existing rules and
directives relating to the responsible conduct of research.'.28

         Regarding intent, the Report stated:

                  The Committee reached a consensus that plagiarism actions
                  committed by the [Subject] were done at least knowingly and most
                  probably carelessly, as he did not make an effort to verifY the
                  information contained in some portions ofthe technical content of
                  the two proposals. However, the Committee also agreed that the
                  alleged plagiarism actions may not necessarily have been done
                  intentionally by the [Subject].29

When asked for clarification, the Committee said it made its determination because

                  the [Subject] omitted to invest the necessary time and effort in
                  reviewing the proposal content, which was prepared by his post­
                  doc, as it relates primarily to the proposal background section as
                  well as some areas of the methodology/project description[,]3o

and because ofthe Subject's

                  incorrect representation of preliminary results, as if those results
                  would have been obtained at the [Subject]'s laboratory (at [the
                  University D, when in fact those were preliminary results obtained
                  from research done at another laboratory where the [Subject]'s
                  post doc used to work, and they were in addition already published
                  results. 3!




24 Tab 8, Report Part 4, pg 47. 

25 Tab 8, Report Part 4, pg 47. 

26 Tab 8, Report Part 4, pg 47. 

27 Tab 8, Report Part 1, pg 7. 

28 Tab 9, pg 2. 

29 Tab 8, Report Part 1, pg 7. 

30 Tab 9, pg 2. 

31 Tab 9, pg 2. 





                                                    4

CONFIDENTIAL                                                                                   CONFIDENTIAL



       To determine pattern, the Committee examined grant proposals the Subject submitted to
funding agencies from 2004 to 2009. 32 It "identifIied] a pattern of behavior by the [Subject]
where in some cases, introductory and background included plagiarized material,,,33 which only
sometimes included cited references, and never included quotation marks. 34 It concluded:

                  it appears that the [Subject] is dependent on his research team
                  (including his post-docs) to provide introductory sections of
                  proposals and that his team members have not been properly
                                                                 35
                  trained regarding use of background material.

Asked to provide specific examples of the pattern it identified, the Committee provided OIG
with its analysis of five proposals,36 which included an NSF proposal the Subject submitted after
receiving ourinquiry letter and sending his response to our office. 3? Its findings 38 indicated
substantive copying, the instances ofwhich

                  were consistent enough as to validate what seems to be a pattern by
                  the [Subject] as it related to not providing proper attributions of all
                  ideas or materials included on some sections of the proposal
                  narrative and the presence of extensive copying of passages oftext
                  from other sources, which should have required quotation marks
                  and/or proper citations. 39

         Lastly, the Committee determined the Subject's action impacted other researchers in that

                  previously published work from another lab that was performed by
                  a post-doc currently working in the [Subject]'s lab was described
                  as the "preliminary results" of the [Subject]'s lab. While some
                  "ownership" of these results may have followed the post-doc when
                  he joined the "[Subject]'s" lab, this neglects the "ownership" of
                  these results by the other research collaborators ofthis post-doc at
                  the time the earlier work was performed. In this way, an unfair
                  advantage in the competition for research funding may have
                  resulted. 40



32 Tab 8, Report Part 4, pgs 27-33. The Committee reviewed 35 proposals, of which 6 were funded, 6 were pending, 

21 were declined, and 2 were submitted during the investigation. 

33 Tab 8, Report Part 1, pg 7. 

34 Tab 8, Report Part 1, pg 7. 

35 Tab 8, Report Part 1, pg 7. 

36 Tab      .



37 This will be discussed further below. 

38 Tab 9, pgs 3-6. 

39 Tab 9, pg 6. 

40 Tab 8, Report Part 1, pg 8. 





                                                        5
CONFIDENTIAL 	                                                                    CONFIDENTIAL



Since the proposals were declined and it was unknown whether other research collaborators
submitted competing proposals, the Committee classified the impact as limited.41

       The Committee recommended that:

       • 	 The Subject be sent a written disciplinary letter, a copy of which would be sent to his
             Director, Department Chair and College Dean, summarizing the allegations, the
           . findings and recommended actions, and the Subject be required to acknowledge in
             writing receipt of the letter.
       • 	 The Subject complete responsible conduct of research (RCR) training.
       • 	 The Subject complete RCR training every three years while affiliated with the
             University.
       • 	 The Subject ensure his research team, collaborators, and subcontractors complete
             RCR training, and annually provide a list of his team members to the University.
       • 	 The Subject be made aware that future research misconduct could result in
             termination.
       • 	 The Subject not receive discretionary pay increases or University research recognition
             awards for three years.
       • 	 All of the Subject's proposals, for at least three years, be reviewed by the Subject's
             Director and Department Chair prior to submission. 42


                                    University Adjudication

       A University Official43 issued the letter of reprimand, in which he also informed the
Subject that the University adopted the Committee's recommendations. 44


                       OIG's Assessment of the Investigation and Report

     The University provided OIG with its Report, and OIG invited the Subject to provide
comments.45 The Subject opted not to respond.

         OIG assessed the Report and its supplementary documents for accuracy and
completeness, and found the Report to be accurate but incomplete. Specifically, the Report did
not adequately identifY the standards of the Subject's research cpmmunity, or precisely assess the
Subject's level of intent. However, the University did follow reasonable procedures in
conducting its investigation, and produced an acceptable evidentiary record with respect to the
matters it addressed. Therefore, we adopted the findings in part, but could not accept the report
in its totality in lieu of conducting our own investigation.


41 Tab 8, Report Part 1, pg 8.
:~pgs9-10.
~Assistant to the Provost.
   Tab 9, pgs 8-9.
45 Tab 10.




                                                6
CONFIDENTv\L                                                                                     CONFIDENTv\L




                                              OIG's Investigation

        The Report determined the Subject's action is a significant departure from the standards
of his research community; however, the Report does not identify these standards. We therefore
examined the ethical guidelines of the leading professional association in the Subject's field. 46
The association has an Ethics Committee, whose website47 contains the association's code of
conduct andpubHcations' ethical guidelines. The publication guidelines clearly state: "An
author should identify the source of all information quoted or offered, except that which is
common                ,,48              the                   specific information .
statements
Further, another professional           of which the Subject is a member simHarly provides
guidance on scientific integrity and plagiarism in its pUblication's and at various conferences.
Lastly, the Subject's employer has a research misconduct policy.52 The Subject's actions fall
well short ofthe standards in each case and are thus clearly a significant departure from the
standards ofthe Subject's research community.

        The Report was similarly vague in specifying the Subject's level of intent, stating that his
actions were performed "at least knowingly" "most probably carelessly" and "not necessarily ...
intentionally."s3 To determine the Subject's level ofintent, we reviewed his educational and
professional history. The Subject received his undergraduate and graduate education outside the
U.S. 54 However, after earning his Ph.D. in 1998, the Subject served as postdoctoral fellow,
research assistant professor, and assistant professor at his current U.S. institution. Further, all of
the Subject's publications and all the journals for which he serves as reviewer listed on his
Biographical Sketches55 are English language publications in English language journals. Given
his professional experience and publication record, one may reasonably conclude that the Subject
knew he was not providing adequate attribution of other authors' text.

        We next examined the Report's statement that the Subject included material in the
proposals' preliminary results sections detailing projects conducted by his post doc in another
institution's lab. We identified copied material in both proposals56 that was included in the
proposals' preliminary results sections, contradicting the Subject's claim that the copied material
was all introductory information. Additionally, this material, as written, seemed to misrepresent




52 Tab 7.
53 Tab 8, Report Part 1, pg 7.
54 The Subject received his B.S., M.S., and Ph.D. from institutions i n "
55 Tabs 1 and 3 contain the Subject's Biographical Sketches.                ,
56 Proposal 1 contained material from SourceE in the preliminary results; Proposal 2 contained material from
Source H in the preliminary results.


                                                         7
CONFIDENTIAL                                                                         CONFIDENTIAL



the work as work the Subject himself conducted. Such misrepresentation suggests an action done
knowingly, rather than a simple neglect to carefully review "every sentence of every proposal.,,57

        Finally, we examined the Subject's own statements and noted he provides somewhat
contradictory explanations regarding his actions. He said he was unaware ofthe citation
obligations for NSF proposals, yet supposedly wrote final drafts, which he now cannot locate,
that would have met NSF standards by including references. Additionally, he acknowledges the
proposals were actually written mostly by his post-doc. 58 These accounts, coupled with the
Subject's acceptance of full responsibility despite claiming he himself did not write the
proposals,similarly suggest the Subject acted knowingly.

        Lastly, we re-reviewed the Subject's newest NSF proposal (Proposal4i 9 that the
                                                60
Committee reviewed. Proposal 4 was submitted two months after our inquiry letter and a
month and a half after the Subject's response to our letter. We identified 33 lines, five
references, and two figures copied from eight sources. 61 However, most notable was the
Subject's inclusion oftext from sources 010 identified in its original inquiry letter - specifically,
material from Sources F and 0 62 - and which the Subject acknowledged as inadequately cited in
his subsequent response. This evidence confirms the Committee's determination regarding
pattern, and suggests the plagiarism in Proposal 4 was done at least knowingly.


                                         OIG's Assessment

       A finding of research misconduct by NSF requires (1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence. 63

                                              The Acts

        Our review found the Subject plagiarized 84 lines, four figures, and two embedded
references, from eight sources into two unfunded proposals. 010 concurs with the Report that
the Subject's actions constitute plagiarism, as defined by NSF. We further concur that the acts
constitute a significant departure from accepted practices. In offering material composed by
others as his own work in both the introductory and preliminary results sections, the Subject
misrepresented his own efforts and presented reviewers with an incorrect measure of his abilities.




57 Tab 8, Report Part 4, pg 47.
58 Tab 8,
59 Tab 11




61Tab 11 contains Proposal 4 and source documents. 

62Tab 2 contains Sources F and G; Tab 11 contains identical sources labeled_(Source F) and"(Source 

G). 

63   45 C.F.R §689.2(c). 



                                                  8

CONFIDENTIAL                                                                             CONFIDENTIAL




        The University's report was ambiguous regarding level of intent. Based on our
investigatory review, we conclude the Subject acted with a knowing intent in submitting
proposals containing plagiarism. Specifically, as detailed above, the Subject's professional
experience and publication record, inclusion of copied material within the proposals' preliminary
results section, and his own contradictory statements support a finding that the Subject acted
knowingly in sUbmitting proposals containing inadequately cited or acknowledged material.

                                            Standard ofProof

      OIG concludes that the Subject's actions and intent were proven based on a
preponderance of the evidence.

        OIG concludes that the Subject, by a preponderance ofthe evidence, knowingly
plagiarized, thereby committing an act of research misconduct. 64


                                   OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

                   (1) How serious the misconduct was; (2) The degree to which the
                   misconduct was knowing, intentional, or reckless; (3) Whether it
                   was an isolated event or part of a pattern; (4) Whether it had a
                   significant impact on the research record, research subjects, other
                   researchers, institutions or the public welfare; and (5) Other
                   relevant circumstances.65

                                               Seriousness

        The Subject's actions are a violation ofthe standards of scholarship and the tenets of
general research ethics and those within his research community. First, the extent ofthe
plagiarism" approximately 84 lines, four figures, and two embedded references, from eight
sources into two unfunded proposals - is itself serious. Second, we note the copied text served
to misrepresent the Subject's body of knowledge, inaccurately portraying the proposals'
respective merit to the reviewers. Lastly, and most crucially, the Subject's inclusion of already
published results of experiments conducted in another institution's lab as preliminary results he
himself had obtained is an egregious misrepresentation of his prior research experience.




64   45 C.F.R. part 689.
65   45 C.F.R. § 689.3(b).


                                                     9

CONFIDENTIAL 	                                                                                          CONFIDENTIAL


                                     Degree to which Action was Knowing

       OIG finds in this situation that the Subject acted knowingly. The Subject acknowledged
his proposals contained inadequately cited material and a description of his post-doc's work as
his own preliminary results. In submitting the proposals, the Subject knew of this
misrepresentation. A reasonable person is expected to know that using verbatim text without
demarcation, and representing the work of another laboratory as his own work, is not acceptable.
We therefore find the Subject's actions to be inherently knowing.

                                                        Pattern

        OIG concurs with the Report's identification of a pattern of plagiarism in the Subject's
various proposals. Of note is our further analysis of Proposal 4, an NSF proposal the Subject
submitted two months after being informed of the allegations by our office and a month and a
half after his response to our letter. We find the plagiarism identified in Proposal 4 to be
especially troubling since the Subject inc1uded text from sources OIG had identified in its
original inquiry letter - specifically, material from Sources F and G 66 - and which the Subject
acknowledged as inadequately cited in his subsequent response. The evidence strongly supports
a finding of pattern within the Subject's actions.


                                                 Recommendation

Based on the evidence, OIG recommends NSF:

              • 	 send a letter of reprimand to the Subject informing him that NSF has made a
                  finding of research misconduct;67

              • 	 require the Subject to certify to OIG's Associate Inspector General for
                  Investigations (AlGI) that proposals or reports he submits to NSF do not contain
                  plagiarized material for 1 year;68

              • 	 require that the Subject submit assurances by a responsible official of his
                  employer to OIG's AlGI, that proposals or reports submitted by the Subject to
                  NSF do not contain plagiarized material for 1 year;69 and

              • 	 require the Subject to complete an ethics course, which includes discussion on
                  citation practices, within 1 year and provide certification of its completion to OIG
                  upon completion?O



66 Tab 2 contains Sources F and G; Tab 11 contains identical sources labeled_(Source F) and~(Source
G). 

67 A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(I)(i)). 

68 Certification by an individual is a final action that is comparable to the final actions listed in 45 C.F.R. §689.3(a). 

69 Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(1)(iii)). 

70 Completing an ethics course is a final action that is comparable to the final actions listed in 45 C.F.R. §689.3(a). 





                                                            10 

